<html>
<title> - AN OVERVIEW OF HOMELESSNESS IN AMERICA</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]


                             AN OVERVIEW OF
                        HOMELESSNESS IN AMERICA

=======================================================================

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
                         HOUSING AND INSURANCE

                                 OF THE

                    COMMITTEE ON FINANCIAL SERVICES

                     U.S. HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FIFTEENTH CONGRESS

                             SECOND SESSION

                               __________

                              MAY 17, 2018

                               __________

       Printed for the use of the Committee on Financial Services

                           Serial No. 115-94
                           
                           
 [GRAPHIC NOT AVAILABLE IN TIFF FORMAT]                          

                               __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
31-458 PDF                  WASHINGTON : 2018                     
          
-----------------------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free).
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="93f4e3fcd3f0e6e0e7fbf6ffe3bdf0fcfebd">[email&#160;protected]</a>                
                
               
                
                
                HOUSE COMMITTEE ON FINANCIAL SERVICES

                    JEB HENSARLING, Texas, Chairman

PATRICK T. McHENRY, North Carolina,  MAXINE WATERS, California, Ranking 
    Vice Chairman                        Member
PETER T. KING, New York              CAROLYN B. MALONEY, New York
EDWARD R. ROYCE, California          NYDIA M. VELAZQUEZ, New York
FRANK D. LUCAS, Oklahoma             BRAD SHERMAN, California
STEVAN PEARCE, New Mexico            GREGORY W. MEEKS, New York
BILL POSEY, Florida                  MICHAEL E. CAPUANO, Massachusetts
BLAINE LUETKEMEYER, Missouri         WM. LACY CLAY, Missouri
BILL HUIZENGA, Michigan              STEPHEN F. LYNCH, Massachusetts
SEAN P. DUFFY, Wisconsin             DAVID SCOTT, Georgia
STEVE STIVERS, Ohio                  AL GREEN, Texas
RANDY HULTGREN, Illinois             EMANUEL CLEAVER, Missouri
DENNIS A. ROSS, Florida              GWEN MOORE, Wisconsin
ROBERT PITTENGER, North Carolina     KEITH ELLISON, Minnesota
ANN WAGNER, Missouri                 ED PERLMUTTER, Colorado
ANDY BARR, Kentucky                  JAMES A. HIMES, Connecticut
KEITH J. ROTHFUS, Pennsylvania       BILL FOSTER, Illinois
LUKE MESSER, Indiana                 DANIEL T. KILDEE, Michigan
SCOTT TIPTON, Colorado               JOHN K. DELANEY, Maryland
ROGER WILLIAMS, Texas                KYRSTEN SINEMA, Arizona
BRUCE POLIQUIN, Maine                JOYCE BEATTY, Ohio
MIA LOVE, Utah                       DENNY HECK, Washington
FRENCH HILL, Arkansas                JUAN VARGAS, California
TOM EMMER, Minnesota                 JOSH GOTTHEIMER, New Jersey
LEE M. ZELDIN, New York              VICENTE GONZALEZ, Texas
DAVID A. TROTT, Michigan             CHARLIE CRIST, Florida
BARRY LOUDERMILK, Georgia            RUBEN KIHUEN, Nevada
ALEXANDER X. MOONEY, West Virginia
THOMAS MacARTHUR, New Jersey
WARREN DAVIDSON, Ohio
TED BUDD, North Carolina
DAVID KUSTOFF, Tennessee
CLAUDIA TENNEY, New York
TREY HOLLINGSWORTH, Indiana

                     Shannon McGahn, Staff Director
                 Subcommittee on Housing and Insurance

                   SEAN P. DUFFY, Wisconsin, Chairman

DENNIS A. ROSS, Florida, Vice        EMANUEL CLEAVER, Missouri, Ranking 
    Chairman                             Member
EDWARD R. ROYCE, California          NYDIA M. VELAZQUEZ, New York
STEVAN PEARCE, New Mexico            MICHAEL E. CAPUANO, Massachusetts
BILL POSEY, Florida                  WM. LACY CLAY, Missouri
BLAINE LUETKEMEYER, Missouri         BRAD SHERMAN, California
STEVE STIVERS, Ohio                  STEPHEN F. LYNCH, Massachusetts
RANDY HULTGREN, Illinois             JOYCE BEATTY, Ohio
KEITH J. ROTHFUS, Pennsylvania       DANIEL T. KILDEE, Michigan
LEE M. ZELDIN, New York              JOHN K. DELANEY, Maryland
DAVID A. TROTT, Michigan             RUBEN KIHUEN, Nevada
THOMAS MacARTHUR, New Jersey
TED BUDD, North Carolina
                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on:
    May 17, 2018.................................................     1
Appendix:
    May 17, 2018.................................................    35

                               WITNESSES
                         Thursday, May 17, 2018

Bischoff, Ann, Executive Director, Star House....................    11
Bremer, Duana, Social Service Director, Polk, Burnett, and St. 
  Croix Counties, The Salvation Army.............................     7
Lynn, Peter, Executive Director, Los Angeles Homeless Services 
  Authority......................................................     9
Roman, Nan, President, National Alliance to End Homelessness.....     5

                                APPENDIX

Prepared statements:
    Bischoff, Ann................................................    36
    Bremer, Duana................................................    44
    Lynn, Peter..................................................    49
    Roman, Nan...................................................    53

              Additional Material Submitted for the Record

Duffy, Hon. Sean:
    Written statement from Huckleberry House.....................    62

 
                      AN OVERVIEW OF HOMELESSNESS
                               IN AMERICA

                              ----------                              


                         Thursday, May 17, 2018

                     U.S. House of Representatives,
                                    Subcommittee on Housing
                                             and Insurance,
                           Committee on Financial Services,
                                                   Washington, D.C.
    The subcommittee met, pursuant to notice, at 2:30 p.m., in 
room 2128, Rayburn House Office Building, Hon. Sean P. Duffy 
[chairman of the subcommittee] presiding.
    Present: Representatives Duffy, Ross, Royce, Luetkemeyer, 
Stivers, Hultgren, Rothfus, Zeldin, Hensarling, Cleaver, 
Velazquez, Sherman, Kihuen, Gonzalez, and Waters.
    Also present: Representative Green.
    Chairman Duffy. The Subcommittee on Housing and Insurance 
will come to order.
    Today's hearing is entitled, ``An Overview of Homelessness 
in America.''
    Without objection, the Chair is authorized to declare a 
recess of the subcommittee at any time.
    Without objection, all members will have 5 legislative days 
within which to submit extraneous materials to the Chair for 
inclusion in the record.
    Without objection, members of the full committee who are 
not members of this subcommittee may participate in today's 
hearing for the purpose of making an opening statement and 
questioning witnesses.
    The Chair now recognizes himself for a 5-minute opening 
statement.
    I first want to thank our witnesses for participating in 
today's hearing as we take a look at homelessness in America. 
We also need to review the effectiveness and efficiency of our 
Federal programs in order to determine if we are getting the 
biggest bang for our taxpayer dollar.
    We have already had an opportunity to discuss the number of 
ways HUD (U.S. Department of Housing and Urban Development) 
helps the poorest among us climb out of poverty and achieve 
self-sufficiency, whether through the FSS program, housing 
choice vouchers, or rental assistance.
    Each year, I host a homelessness and hunger summit in my 
district. This year, I was honored to be joined by the HUD 
Secretary, Ben Carson, at our event, where we had over 400 
people in attendance. Maybe the HUD Secretary brings a few more 
people out. That was nice.
    But during the summit, we learned that, time and again, 
homelessness in rural areas looks a lot different than 
homelessness in urban areas. But I would just note that it has 
the same impact on individuals and on families all the same.
    I am sure you will understand my focus on Wisconsin, and I 
want to quote something from Ms. Bremer's testimony that 
highlights the distinction between homelessness in rural areas 
versus urban areas.
    Now, before I read her quote, I would just note that PIT in 
HUD-speak is point in time and refers to how many people are 
counted as homeless in an area on a specific day. So to quote 
Ms. Bremer: ``Comparing January 2016 PIT to the January 2017 
total, there was an overall 12 percent decrease in the number 
of people experiencing homelessness on that one night in 
Wisconsin. However, there was an 8 percent increase in the 
number of people experiencing homelessness in our rural 
communities,'' end quote.
    So we have Statewide homelessness in Wisconsin going down 
by 12 percent, but rural homelessness actually increasing, 
which is a significant problem.
    Now, I like Madison and Milwaukee as much as any other 
Wisconsinite, but we need to make sure that HUD's resources 
aren't just primarily focused on metropolitan areas. That means 
addressing some of the funding disparities between rural and 
urban populations.
    The 2010 Census Bureau's Consolidated Federal Funds Report 
stated that of all Federal Government assistance provided per 
capita, folks in rural communities receive almost $700 less per 
year than in urban communities. That is a lot of money, 
especially for our smaller providers who are helping the 
homeless.
    We can start by looking at the Federal definition of 
homelessness to be more inclusive and recognize the reality 
that the homeless population in rural areas face different 
challenges than the homeless in larger, more metropolitan 
areas.
    Our homeless in rural Wisconsin, we don't have bridges that 
the homeless sleep under or large centers providing shelter. 
Our local communities don't get funding proportionate to that 
of larger cities.
    The homeless in my district hope that they have a friend 
that will put them up for a night on their couch or they live 
out of their cars. This might shock some of you, but some of my 
constituents actually will sleep in the woods when they don't 
have a place to stay. We don't even have sidewalks in some of 
our rural communities. This is rural stuff.
    So let me close by saying this: As it turns out, folks 
aren't happy when they are relying on the Government. People 
are happy when they are in the community, in the workforce 
contributing to society, and at the end of the day, they have a 
bit of cash left over maybe to spend on themselves or their 
families. And so I want to make sure that our programs achieve 
those goals.
    To quote Secretary Carson, quote, ``We should measure the 
success of a program not on the number of people we add to it, 
but the number of people we get off of it,'' end quote.
    And so I just--today's hearing, I know that Ms. Waters is 
going to testify. And I know that in California, in L.A., there 
is a serious homelessness problem that is ravaging her 
community.
    And so I don't, in my comments, want to undermine the 
problems that we have across the country, but I do think it is 
a point in time where we can talk about the disparity of rural 
America and how homelessness affects our people in a different 
way and how the funding resources don't flow to rural America, 
though the impact on a family and an individual are just as 
catastrophic.
    So, again, I want to thank our panelists for being here 
today. I look forward to your insight and your feedback.
    With that, I now recognize the Ranking Member of the 
subcommittee, the gentleman from Missouri, Mr. Cleaver, for 2 
minutes.
    Mr. Cleaver. Thank you, Mr. Chairman, and thank you for 
this hearing. I associate myself with the facts that you just 
presented.
    In Missouri, 5 out of every 10,000 people are homeless. And 
one of the great tragedies is that many Vietnam veterans live 
along the Missouri River, and that is quite a jump. Usually we 
will have this annual standdown where we try to bring as many 
of them into the city for haircuts and dental checks and so 
forth.
    But they live along the Missouri River, and that is 
significant when you consider this is the third longest river 
system in the world. The Missouri connects up with the 
Mississippi and--just outside of Kansas City headed toward St. 
Louis, and they are living all along the river part. And a 
significant number of them live outside of a place called 
Slater--that you have never heard of--and maybe you have heard 
of Marshall. It is 12,000 people.
    So we have a very serious problem. It is being addressed by 
some great agencies, City Union Mission in Kansas City, ReStore 
in Kansas City. But when you get into the rural areas, there 
are very, very few, if any, homeless shelters. Now, we can say 
what we want about people who are homeless, but for many of 
them, they are people with some severe issues, some of them 
mental.
    One of the most painful days for my twin sons was when the 
local newspaper reported that Willie Mays Aikens was living 
under a bridge in Kansas City. Willie Mays Aikens for 5 years 
was the leading homerun hitter for the Kansas City Royals, and 
he ended up living under a bridge. And there are a million 
stories like that all along the Missouri River.
    So thank you for calling this hearing, Mr. Chairman, and 
hopefully we will get some answers to give us help. Thank you.
    Chairman Duffy. The gentleman yields back.
    The Chair now recognizes the Ranking Member of the full 
committee, the gentlelady from California, Ms. Waters, for 3 
minutes.
    Ms. Waters. Thank you very much, Mr. Chairman.
    And I want to say a thank you to our witnesses for being 
here today. I am very pleased that we are having this hearing. 
Some of us have been calling on this committee to turn its 
attention to homelessness for more than 5 years. And, of 
course, this will be the first hearing that this committee has 
focused on on homelessness during our Chairman's tenure, and I 
certainly hope it will not be the last.
    In fact, I would like to remind the Chairman of my request 
to hold a field hearing in Los Angeles to hear from local 
stakeholders about the recent increase in homelessness in that 
area. Los Angeles is ground zero for homelessness, and that is 
why I am pleased that Peter Lynn is here today to tell us about 
the unique experience of Los Angeles and unique challenges and 
solutions that they are facing in fighting this problem.
    Today, there are over .5 million people experiencing 
homelessness here in the richest country in the world, over 
one-fifth of whom are children. These are veterans we failed to 
support when they returned home after serving our country, 
these are women fleeing domestic violence, these are people who 
have left prison after serving their debt to society, and these 
are people who have simply fallen on hard times.
    Mr. Chairman, we know exactly how to end a person's 
homelessness: You provide her with a home. That is why I 
introduced H.R. 2076, a $13.2 billion bill, the Ending 
Homelessness Act, which provides a surge of new resources and a 
comprehensive plan to tackle this solvable problem. The end of 
homelessness in this country is within our reach if we can just 
muster the political courage to provide the necessary 
resources.
    And to the--Mr. Duffy, let me just say this: I don't think 
there is any division, any problems talking about homelessness 
both in rural and urban areas. Everybody wants to do something 
about this. And I can tell you that I support dealing with and 
supplying the resources for homelessness in the rural community 
just as I support it in the urban community. So I am anxious 
that we can get along with doing something about homelessness.
    And I yield back the balance of my time.
    Chairman Duffy. The gentlelady yields back. And I look 
forward to working with her on this very important issue. I 
think I have actually suggested coming to California and 
letting her come to rural Wisconsin. It would be a fun trip 
together. But that is for a different conversation.
    She said she is going to go to Los Angeles, not to 
Wisconsin, I would note.
    I want to welcome our witnesses today. Thank you for being 
here. First, I want to recognize our first witness, Ms. Nan 
Roman, the President of the National Alliance to End 
Homelessness, also one who has participated in my homelessness 
and hunger summits in Wisconsin. I appreciate that.
    Our second witness is Duana Bremer, the Social Service 
Director for Polk, Burnett, and St. Croix Counties at the 
Salvation Army-- counties that belong to the Seventh District 
of the great State of Wisconsin. From personal experience, I 
just know how hard she works and the success she has had 
helping the poorest among us work through her programs and 
transition into a life of sustainability. And she has also been 
part of our homelessness and hunger summits, and I thank her 
for being here today as well.
    Our third witness is Mr. Peter Lynn, executive director of 
the Los Angeles Homeless Services Authority. Welcome.
    And for the introduction of Ms. Bischoff, I want to look to 
the gentleman from Ohio, Mr. Stivers, for her introduction.
    Mr. Stivers. Thank you, Mr. Chairman. I appreciate you for 
calling this hearing and your impactful opening statement.
    I am honored to introduce Ann Bischoff, the CEO of the Star 
House. It is a 24-hour center that provides services for 
homeless youth in central Ohio. I have had the opportunity to 
visit Star House and witness firsthand how impactful their work 
is on the vulnerable youth population that they serve and is 
committed to serving her fellow man.
    And I want to welcome her to the Housing and Insurance 
Subcommittee, the Financial Services Committee, and thank you 
for allowing me to introduce her.
    Thanks for being here, Ann, and we are looking forward to 
hearing your very important testimony on how this impacts youth 
because the statutory definition also leaves them out.
    So thank you, Mr. Chairman. I yield back.
    Chairman Duffy. Thank you, Mr. Stivers.
    The witnesses will now be, in a moment, recognized for 5 
minutes to give an oral presentation of their written 
testimony.
    Without objection, the witness' written statements will be 
made part of the record following their oral remarks. Once the 
witnesses have finished presenting their testimony, each member 
of the subcommittee will have 5 minutes within which to ask the 
panel questions.
    I would just note that on your table there are three 
lights: Green means go, yellow means you have 1 minute left, 
and red means that your time is up. Pretty self-explanatory. 
The microphones are sensitive, so please make sure you are 
speaking directly into them.
    With that, Ms. Roman, you are now recognized for 5 minutes 
for an oral presentation of your written testimony.
    Ms. Roman. Well, thank you so much. Chairman Duffy--
    Chairman Duffy. Microphone. Is it on?
    Ms. Roman. Yes?
    Chairman Duffy. There we go.
    Ms. Roman. Better.

                     STATEMENT OF NAN ROMAN

    Ms. Roman. Chairman Duffy, Ranking Member Cleaver, and 
members of the subcommittee and the committee, thank you so 
much for inviting the National Alliance to End Homelessness to 
testify at this important hearing.
    I know personally of the tremendous commitment of Chairman 
Duffy and Ranking Members Cleaver and Waters, Congressman 
Royce, and many other members of the subcommittee to helping to 
end homelessness. And we are deeply grateful for your 
leadership.
    I am pleased to report to you that although not--
homelessness didn't go down in every community, from 2007 to 
2016, homelessness did decline in the Nation across all 
measured populations. And this has happened despite the 
headwinds of increasing rents and declining incomes for poor 
people. It happened because of Federal support, notably from 
the McKinney-Vento homeless assistance programs, and because of 
the effective work of local leaders like those who join me here 
today on the panel.
    Progress has been made, but there is a long way to go. Over 
550,000 people are homeless every night. This is unnecessary 
because we know how to end homelessness, and achieving that 
goal is well within our ability as a Nation.
    People become homeless when they lose housing, and people 
who have a home are not homeless. It is definitional. You here 
on the subcommittee do not control every Federal resource that 
might be able to help people end their homelessness, but you do 
control housing resources and the homeless programs.
    The U.S. Department of Housing and Urban Development's 
homeless assistance programs have been effective and 
successful. They are effective because they know what they can 
do and what they cannot do. They can help people resolve a 
housing crisis and end their homelessness; they cannot solve 
every problem that people have or end their poverty on their 
own, their first step.
    They are effective because they focus on housing. They are 
effective because they collect and use data. And they are 
effective because, as HUD learns from the field about what 
works best, it continually adjusts the programs to support 
those solutions and maintains a firm focus on outcomes. As a 
taxpayer, I would say that is how I want a Federal program to 
run.
    The programs are effective, but there are always things 
that could be improved. The programs have become more complex, 
and there may be ways in which they could be streamlined. It 
must be said, though, that a lot of the complexity has to do 
with stretching an inadequate resource to try to meet urgent 
needs.
    While homelessness has declined more rapidly in rural than 
urban areas overall--sorry that is not the case in Wisconsin--
the programs could do a better job of helping rural areas take 
advantage of their smaller homeless numbers.
    The subcommittee might consider allowing rural communities 
to provide short-term emergency lodging assistance, incentive 
payments to host households, and encouragement to counties to 
combine homeless and mainstream funding.
    Also to use a definition that is more flexible with respect 
to the things you discussed, in terms of the people that have 
no shelters, it is hard to identify homeless people, people as 
being homeless.
    People who are homeless must have housing, but they also 
have service needs. HUD needs to partner with other Federal 
agencies in terms of the Federal responsibilities for that, and 
that is where the U.S. Interagency Council on Homelessness 
(USICH) comes in. It helps Federal agencies and State and local 
entities to coordinate.
    The impact of USICH's work can be seen in the positive 
homelessness outcomes. The Alliance wholeheartedly supports the 
work of USICH in its continuing authorization, which could be 
accomplished through H.R. 5393, the Working Together to End 
Homelessness Act.
    While there are always things to improve, it makes sense 
not to change things that are working well. Using permanent 
supportive housing to end chronic homelessness has cut that 
population in half. HUD could be more aggressive in targeting 
turnover vouchers to move on initiatives that would free up 
more of the supply of that for higher need people.
    Rapid rehousing has significantly contributed to the 
reduction in family homelessness. This intervention should be 
expanded, especially for use by individuals. HUD's investment 
in new youth programs fills an unmet need. It will be important 
as the demonstrations begin to be implemented to monitor their 
outcomes and see what works.
    There needs to be an articulation of solutions to 
homelessness among individuals. The largest subpopulation--this 
is the largest subpopulation, but it has been the least 
attended to by communities and by HUD, which is possibly the 
reason that unsheltered homelessness has gone up.
    These are some of the things to continue in next steps. 
But, again, it is the Alliance's view that with a strong 
leadership and support of Congress and the Administration and 
with a strict focus on outcomes, the McKinney-Vento programs 
are doing an excellent job.
    Two very important things, however, remain to be said. At 
least a third of people who are homeless are unsheltered, 
nearly 200,000 people a night. That means they have no roof 
over their head at all. That is just not acceptable.
    HUD is doing the best it can. It and all its grantees are 
wringing every possible ounce out of every dollar they get from 
you and leverage from others. We know what to do to get people 
back into housing, but we just don't have the money to do it 
for those people who are unsheltered.
    Further, more people are going to become homeless, and the 
effectiveness of our homeless efforts are going to diminish if 
the trajectory doesn't change on affordable housing. That 
problem is just getting worse. Lower income families and 
individuals are paying more and more of their inadequate 
incomes for rent, and they are being placed at risk of 
homelessness. Not addressing that crisis will stop our progress 
on ending homelessness and have enormous economic, social, and 
human costs to our Nation.
    Once again, I thank you so much for having this hearing and 
for inviting the Alliance to be here.
    [The prepared statement of Ms. Roman can be found on page 
53 of the Appendix.]
    Chairman Duffy. Thank you, Ms. Roman.
    Ms. Bremer, you are now recognized for 5 minutes.

                    STATEMENT OF DUANA BREMER

    Ms. Bremer. Again, I would like to thank Chairman Duffy, 
the Ranking Member Cleaver, and the rest of the committee for 
allowing us to be here today to address this very important 
issue. Salvation Army is very grateful to be part of this 
conversation to help homeless families seek permanent housing.
    Homelessness is often framed as an urban policy issue--
however, families, service providers, and communities. This 
situation has received little notice from media or research 
attention because it is mostly focused on the highly visible 
problem of urban homelessness. There are over 554,000 homeless 
individuals residing in the country today; 7 percent of those 
individuals are from rural communities.
    Rural residents have had a long tradition of taking care of 
their own with reliance on relatives, friends, and neighbors. 
And anyway, this has been effectively disguising the numbers of 
rural homelessness in our community.
    Homelessness in rural areas, you don't see them. They are 
not on the streets. We don't see them in our communities. They 
are in woods. They are in barns. They are doubled up with 
friends. They are in storage units.
    Since homeless individuals are hidden like this, it is very 
difficult to count them. So when we do have our point-in-time 
street count and we count people that are literally on the 
streets or in a shelter, many of these folks go uncounted 
because we don't know where they are.
    Because rural homelessness manifests itself differently 
from urban areas, the difference may be that we need to look at 
policy changes that are a little bit different for a rural area 
compared to an urban area. The rural homeless population make 
up more families and fewer single individuals. These 
individuals, in many cases, are working as well, and many of 
them are experiencing homelessness for the very first time.
    What causes some of this housing instability? It is 
obviously the loss of affordable housing. Wages in rural areas 
many times have not kept up with the cost of living. People are 
underemployed, and the debt to Americans have taken on a great 
deal for this issue.
    The other issue in rural areas that we see a lot is the 
deinstitutionalized of mental health without giving enough 
community-based housing to assist these folks.
    Approaches to address homelessness have also changed over 
the years. Well, in the past, many of the approaches used to 
deal with homelessness were getting people simply off the 
streets and putting them into an emergency shelter.
    Today, with the continuum of cares, which are CoCs, they 
work to transition homeless people into permanent housing 
solutions. Now, permanent housing solutions may be different 
for everyone. Permanent solution might be for someone a group 
home. It might be a rest home. It might be sharing an apartment 
with someone else. These are all--they are all different for 
every individual.
    CoCs are geographically based entities created by HUD that 
are tracked with transitioning people--excuse me--that are 
transitioning the homeless population into the area through a 
range of services ultimately set up to meet their needs. A CoC 
may offer outreach and intake. It may link people to 
appropriate housing services. It may provide transitional 
support of housing. It may put people into permanent support of 
housing.
    There are also many significant barriers in rural areas 
that are different than urban. One is the lack of 
transportation. There is very limited if no public 
transportation in rural communities. So how do you get to a 
service provider when you don't have a car?
    Isolation. That is another issue in rural areas. People are 
so isolated due to the expansiveness of our area that they find 
it emotionally cutoff as well as geographically cutoff. There 
is a shortage of services in rural areas because our 
populations and our areas are not quite as large, and, again, 
there are barriers to employment which indicate transportation 
issues.
    In closing, since the Interagency Council on Homelessness 
has a goal of ending homelessness in America by 2020, I feel 
that it is important that we consider, however, the rural 
population of individuals and families experiencing 
homelessness are made--may need different policy solutions and 
practice models other than those living in urban areas.
    We want to ensure individuals and families experiencing 
homelessness, they are considered as possibly a special 
population with unique barriers and needs. The Federal policies 
could be tailored and, when possible, flexible in order to make 
sure rural communities can meet the needs of residents who 
experience homelessness in rural areas.
    And, again, thank you for your time.
    [The prepared statement of Ms. Bremer can be found on page 
44 of the Appendix.]
    Chairman Duffy. Thank you.
    The Chair now recognizes Mr. Lynn for 5 minutes.

                     STATEMENT OF PETER LYNN

    Mr. Lynn. Thank you.
    Thank you, Chairman Duffy, Ranking Member Cleaver, Ranking 
Member Waters, and members of the subcommittee. I am Peter 
Lynn. I represent the Los Angeles Homeless Services Authority, 
which is a joint powers authority between the city and county 
of Los Angeles. We are the lead for the Continuum of Care, and 
we administer Federal, State, and local assistance county-wide. 
That includes programs focusing on prevention, on outreach, on 
shelter, and emergency crisis and bridge housing, as well as 
permanent housing outcomes for folks, including short-term 
rental assistance like the rapid rehousing program that Nan 
mentioned, permanent supportive housing programs that include 
durable rental subsidies.
    We coordinate our work with many other partners, public and 
private, through Los Angeles' coordinated entry system. It is a 
very effective, collaborative, strategic planning mechanism and 
assessment tool, backbone of infrastructure to align all the 
services we are delivering into homelessness.
    Our jurisdiction covers densely urban areas, like the city 
of Los Angeles. It includes suburban communities like those in 
the San Gabriel Valley, and it includes rural areas like those 
in the high desert up in the Antelope Valley.
    Homelessness in Los Angeles is at crisis proportions. Last 
year, the number of people homeless in L.A. rose 23 percent, 
almost 58,000 Angelenos homeless on any given night in 2017. 
L.A.'s numbers were enough to impact the national picture last 
year.
    And in L.A., unlike the rest of the Nation, our numbers are 
actually worse from an unsheltered perspective. Three-quarters 
of Angelenos experiencing homelessness are unsheltered. They 
are living in vehicles. They are living in tents. They are 
living in makeshift dwellings that are visible throughout the 
Los Angeles County.
    Our ability--like others doing this work nationally, our 
ability to actually effectively address the homelessness of any 
given person that we can serve is actually increasing every 
year. We have more programming, and the effectiveness of our 
programming has gotten better and better.
    We are moving more people into housing year over year. In 
2016, we moved over 14,000 people out of a state of 
homelessness into permanent housing. That is an increase of 30 
percent over the year before that, 61 percent over the year 
before that.
    We project those numbers to increase as we deploy new local 
resources. Angelenos have voted to tax themselves, actually 
twice. There was a county-wide sales tax measure putting a 
quarter cent new revenues for homelessness and a city of L.A. 
bond measure to put $1.2 billion into new permanent supportive 
housing capital.
    But the root--so the root cause of the crisis in Los 
Angeles is not the homeless crisis system. It is housing 
affordability. Our main challenge is that we are one of the 
least affordable housing markets in America by many metrics. We 
are--we have one of the lowest vacancy rates. We have one of 
the highest numbers of people paying more than half their 
income for rent.
    Los Angeles, there are 700,000 renter households paying 
more than 50 percent of their income for rent. Of those, more 
than 300,000 of those households make under $20,000 a year. 
This is a very high-cost region. This is an enormous number of 
families that are absolutely on the edge of homelessness. They 
are one financial crisis, one car payment, one medical bill 
away from homelessness in Los Angeles.
    Nationally, it is estimated that fewer than 25 percent of 
households that are income eligible for deeply affordable 
housing programs have access to these programs. In Los Angeles, 
16 percent of those very low-income households are subsidized. 
We have a crisis of affordability in L.A.
    Most people face homelessness due to the numbers we see for 
economic reasons. That is the primary cause of homelessness for 
the people that we speak to. There are other drivers, and 
history of incarceration is one of the primary drivers. It has 
an impact on people's economic stability and their ability to 
rent in the housing market.
    Inequitable criminal justice enforcement has had a 
disproportionate impact on communities of color in Los Angeles 
and nationally. It is why the representation of African 
Americans in homelessness is very disproportionate to the 
representation of other communities. That is one of the issues 
that we have to address in addressing homelessness nationally.
    We need to fund more affordable housing, both workforce and 
low income, and we need to fully fund the programs that address 
homelessness. As Nan pointed out, we know how to use the 
resources. We have been effective in reducing homelessness 
nationally, even though these programs have not increased their 
funding markedly.
    We want to encourage you to support the U.S. Interagency 
Council on Homelessness. It has been an extremely effective 
partner in bringing together the Federal collaboration, 
partners that, for all their willingness, have not been the 
best at collaborating across agencies. We also think that their 
expertise at bringing information to local communities is 
unparalleled. They are one of the main drivers of the success 
of bringing information to those communities.
    Also want to just thank the subcommittee for looking into 
this issue. It is a critical one for Los Angeles and for the 
Nation. We greatly appreciate your focus on homelessness.
    [The prepared statement of Mr. Lynn can be found on page 49 
of the Appendix.]
    Chairman Duffy. Thank you, Mr. Lynn.
    Ms. Bischoff, you are recognized for 5 minutes.

                    STATEMENT OF ANN BISCHOFF

    Ms. Bischoff. Thank you.
    Good afternoon, Chairman Duffy, and Ranking Member Cleaver, 
members of the subcommittee. It is an honor to be here today to 
recognize and state the unique needs of youth who are living 
without permanent housing in our communities.
    My name is Ann Bischoff, and I am CEO of Star House. We are 
a drop-in center for youth ages 14 to 24 who are experiencing 
homelessness in central Ohio. My testimony today is from the 
perspective of a drop-in center that is operating in 
collaboration with HUD but outside of the HUD system.
    We use the McKinney-Vento Education Act definition of 
homelessness, which includes youth who are without a permanent 
place to call home, including those who are living with another 
person due to hardship. They are called couch surfers.
    My oral testimony today is condensed to three points: No. 
1, youth homelessness is complex and growing; No. 2, there are 
proven practices within the drop-in center model; and No. 3, I 
would like to share some innovative ideas for addressing the 
workforce and housing needs of youth.
    A recent research study by Chapin Hall--this is an 
institute with the University of Chicago--found that over a 12-
month period, 1 in 30 13-to 17-year-olds were experiencing 
homelessness. The number was 1 in 10 for youth ages 18 to 25. 
This equates to about 3.5 million young people, and three-
quarters of these young people slept on the streets and were 
also couch surfing.
    More than half of these youth felt unsafe in these 
situations, and they were at high risk of exploitation. In 
fact, nationally, one in five of these youth have experienced 
human trafficking. Couch surfers are not currently eligible for 
HUD services because they do not meet the HUD definition of 
homelessness.
    And here are some things that we have learned at Star 
House. We know that half of youth living on the streets 
experiencing homelessness have been in foster care, a quarter 
have aged out of care. So this tells us that they likely have 
no mom or dad there to support them during these crucial 
transition years to adulthood.
    Jewish Family Services in central Ohio works with both 
Holocaust survivors and young people aging out of foster care. 
And they have told me that in a survey of youth aging out of 
care, they are scoring 8.5 on a 10-point scale of trauma. And 
the ACEs scale includes experiences like rape, abuse, assault, 
and so on.
    Given what they know about Holocaust survivors, they are 
telling us that a score of 8.5 on average for these youth is 
equivalent to the experience of a Holocaust survivor. Forty-one 
percent have attempted suicide. This tells us that when you are 
not sure where you are going to be sleeping from night to 
night, your hope for the future is diminished.
    We know that a quarter to 40 percent of these young people, 
depending on when you survey, identify as LGBTQ and they have 
been ostracized from their families. According to Chapin Hall, 
LGBTQ youth were more than twice as likely to report 
homelessness.
    What all these statistics boil down to is trust. These are 
young people who were let down by the adults in their lives who 
were supposed to be there to love and support them. As a 
result, they would too often rather fend for themselves on the 
streets than reach out for help. In fact, our research at Star 
House tells us that 80 percent of these young people will 
choose a drop-in center over the adult shelter system for fear 
of being abused, victimized by the older adults there.
    We know the story of a young man at Star House who ran away 
from an abusive situation at home, got a job at the mall, and 
slept behind a dumpster on an inflatable pool raft there just 
so he could get to work on time. He found Star House and was 
able to get a shower, a hot meal, and some other resources that 
he needed. He kept his job as a result, and he was able to move 
on and didn't need our services as long as others.
    The story of another young woman is that she was living in 
an abandoned home and nailing wooden planks into the door each 
night just so that she could get enough sleep--peace to sleep 
at night. She was physically and sexually abused by her 
parents.
    So the drop-in center model works because these young 
people have immediate access to basic needs. We work very hard 
to build their trust and to connect them with onsite resources 
like therapy, shelter--therapy, healthcare. This is a 
population that is 12 times more likely to die than their 
peers, and we work hard to connect them with housing, 
education, workforce development, and other resources.
    Last year, we served 1,000 individuals, up from 400 in 
2012. Our research shows that the longer young people 
experience the transience of homelessness by any definition, 
the more difficult it becomes for them to exit street life. 
Utilizing the McKinney-Vento Education Act definition, which 
includes couch surfers, allows us to assist all youth living 
without a permanent place to call home before they become 
chronically homeless.
    A couple of innovative ideas for addressing the workforce 
and housing needs of youth: One, we know that 60 percent of 
youth, after coming to Star House, acquired a job. And when you 
ask the same youth if they still have the job, it is nearly 40 
percent. So providing flexible jobs onsite at Star House will 
be a life changer for them. They will be able to access 
workforce development on their own schedule and be more likely 
to attain a permanent job once they secure housing.
    Thank you for inviting me to share with you today. Youth 
homelessness is growing, and research tells us that the longer 
young people experience homelessness, they are more likely to--
the harder it becomes for them to exit street life.
    I am happy to answer any questions that you might have.
    [The prepared statement of Ms. Bischoff can be found on 
page 36 of the Appendix.]
    Chairman Duffy. Thank you, Ms. Bischoff.
    I want to thank the panel for their statements.
    The Chair now recognizes himself for 5 minutes for 
questions.
    I want to thank the panel again. I think we have done a 
nice job of getting a wide array of opinions and views from 
across the country, and, frankly, riveting and insightful 
testimony. So thank you for that.
    Ms. Bremer, I want to turn to you first. Obviously, we 
share the same area, western, northern, rural Wisconsin. If you 
were to leave us with one point on how we can help you serve 
your community better, what changes can we make that would help 
you the most?
    Ms. Bremer. I think the one change that we could make would 
be to have more flexibility in the HUD definition. And I can 
give you an example of this. I am part of the West Central CoC, 
which is in your district. We have a very large population of 
chronically homeless in that area. We have also a large 
population of homeless. That particular area we really want to 
follow the HUD definition of homelessness so we can serve the 
most vulnerable.
    I also work in another county, Burnett County, which is 
extremely rural. They have zero chronic homelessness. But they 
have 20 children in their schools that are unaccompanied youth 
that I am not able to help with the HUD definition. These are 
kids that are sofa surfing. They have no permanent house. They 
are sleeping at Wal-Mart. They are going to the QuikTrip. But I 
would like to be able to work with those folks to get them into 
permanent housing, so I think the main thing would be 
flexibility.
    Chairman Duffy. Flexibility, OK.
    I want to quickly ask you about the rapid rehousing program 
and your concern with being able to take a few more dollars for 
case management, is that correct, No. 1? And No. 2, why?
    Ms. Bremer. This is what we are looking at. With HUD 
dollars that we receive, permanent supportive housing folks are 
the folks that have the greatest barriers. They receive a lot 
of case management. And to be honest with you, because they 
have been homeless for many years in some cases, they have also 
mental health and AODA issues, they need a lot of case 
management. And I think we are serving that population very 
well.
    There is another segment of population that walks into our 
office, basically they hit a little bump in the road, and all 
they need is some rent assistance and they can be on their way. 
Those folks are succeeding and doing very well. It is the group 
in the middle, in the middle that really don't qualify for 
extensive permanent supportive housing support, but they need 
more than no case management at all.
    So working with these clients, I think we can work with 
them and use funding more efficiently to move them into 
independence quicker, to be able to also work with the schools, 
go to conferences, and just move forward with their families.
    Chairman Duffy. And I want to thank you for bringing up the 
issue of transportation. Again, we don't have public 
transportation. You don't have a car that works very well, it 
breaks down, you can't get to your job, you lose your job, then 
you lose your house.
    And if we could figure out a way of how we could get 
reliable transportation, and that is a--we have talked about 
this in the past, but that is a longer conversation, more 
thoughtful, on how we get resources to help people out or how 
we partner with community members to make this happen. This 
could deal with the critical issue that we have in our rural 
community.
    Ms. Bischoff, I want to turn to you quickly. I am not 
sure--as you are speaking about foster care, I am sure you know 
of Congressman Mike Turner's bill that we had a hearing on 
recently that will bridge our kids coming from foster care to 
make sure they have housing.
    The stats are stunning that--kids who come out of foster 
care and the rates of homelessness. Have you worked with Mr. 
Turner in this legislation, because you are like singing off 
the same sheet of music.
    Ms. Bischoff. OK. No, I have not. I am not an expert in 
policy, but I know these kids, and I know that workforce 
development, requiring them to work when they are in a state of 
flux is very difficult for them. That is why we have developed 
a program called Star Works where young people will have access 
to jobs onsite--within our facility.
    You know, they are coming to us inconsistently when they 
are in this transient state. They might come to the drop-in 
center at 10 o'clock on Tuesday and 2 o'clock on Thursday, but 
they are coming to us. And while they are there, they will have 
access to work opportunities, trauma-informed workforce 
development. This trauma piece is crucial for these youth.
    We have young people who are getting jobs, and then one 
young man, 5 hours in, got into this perceived conflict with 
his boss. The fight-or-flight reflex kicked in and he left. So 
this training will teach them to stay. Work is important, but 
it needs to be flexible.
    Chairman Duffy. And Mr. Turner has a bill that, again, I 
think is going to move that gives foster youth a priority 
placement, one of the top three, as they move out of foster 
care.
    My time is up, Mr. Lynn, but I was fascinated by your 
testimony and the issues that are happening in L.A. Wasn't sure 
if this was people coming from where Duana and I live, where it 
is cold, coming to L.A., but it seems like, no, this is an 
issue of income. It is an issue of expensive housing, 
prosecutors maybe in your area.
    I am sorry that I don't have more time, but I am fascinated 
to hear more as we go through our witnesses to hear about your 
problems and how we find solutions to address your concerns.
    With that, my time is up.
    The Chair now recognizes the Ranking Member of the full 
committee, the gentlelady from California, Ms. Waters, for 5 
minutes.
    Ms. Waters. Thank you very much.
    And let me thank again Mr. Peter Lynn for being here. And, 
of course, his testimony to us should shock us all, with the 
55,188 people experiencing homelessness in the Los Angeles 
area. And, of course, each time I visit the downtown Los 
Angeles area, commonly referred to as Skid Row, I can see the 
expansion and the growth in the homeless population.
    And it seems to me that the tenting and the shanties and 
the shacks that are there housing people are almost all the way 
up to city hall. And so I am very, very concerned about this 
situation in Los Angeles, but I am very pleased about the work 
that has been done.
    And I am very pleased that the people of the city and the 
county voted to tax themselves in order to, you know, not only 
increase housing, build housing, but for supportive housing. So 
they are certainly to be commended for that. And I think a lot 
of cities need to think about what they can do in order to 
reduce homelessness in their areas by asking the taxpayers to 
please participate even more in ensuring that we could get 
people off the street.
    Now, let me just say, I had a visit this morning from the 
mayor of Oakland, Mayor Libby Schaaf. And she was here because 
they have a program where mayors and CEOs of companies are 
getting together to deal with homelessness. And I guess it is 
getting resources from both the public and the private sector.
    And so her question to me was, what can we do to get the 
Federal Government to provide more resources to deal with this 
issue? And I had to admit that I was absolutely troubled by the 
fact that this Administration's funding budget for 2019 
requests for cutting the Department of Housing and Urban 
Development's funding by $11 billion, including the elimination 
of at least 200,000 housing vouchers, the National Housing 
Trust Fund, the public housing, as well as many other critical 
housing programs.
    Can you basically talk about what this would mean for your 
efforts to reduce homelessness in Los Angeles? I could ask 
everybody on this panel this question, but I was almost 
terribly embarrassed by the question when it was raised to me 
by the mayor of Oakland, what can you do, when I am facing 
these kind of cuts in the Federal budget.
    How would this impact your efforts in our city, Mr. Lynn?
    Mr. Lynn. Ranking Member Waters, it would be devastating. 
Nationally and locally, it is devastating. These are folks--the 
overwhelming majority of people who are on the Housing Choice 
Voucher Program, colloquially Section 8, are extremely low 
income; that is 30 percent of area median or below.
    These are folks who would not be able to participate in the 
rental market at any level without assistance, without subsidy 
assistance. It would mean a shrinkage of the affordability 
nationally. We have not kept pace with poverty and the 
population in this country since the program was initiated in 
the 70's. It has continued to shrink effectively compared to 
the number of people in America and the number of people in 
poverty in America.
    One of the primary bulwarks against homelessness are these 
deep, affordable programs, Section 8 being one of them, public 
housing being another. Not funding operating reserves and 
capital improvements for public housing also erodes that 
housing stock, which covers the same depth of affordability.
    But the Housing Choice Voucher Program is the one that 
primarily allows people to move out into communities and get 
their--move their kids closer to schools that they want to 
participate in, move them closer to work that they need to--the 
jobs that they want. It is the one that allows people who are 
in those extremely low-income categories to get integrated into 
community and keep from homelessness. It would be devastating.
    Ms. Waters. Well, as you can see, there needs to be every 
effort that can be made by those who are working to try and 
deal with this homeless problem, whether it is elected 
officials, community leaders, et cetera, to see what can be 
done, to speak with this Administration, to speak with Ben 
Carson over at HUD, to see what can be done to convince them, 
please, do not eliminate any housing vouchers. We need more.
    We have people who have been standing in line for these 
vouchers for years. And to talk about cuts in the Department of 
Housing and Urban Development and in the elimination of these 
housing vouchers, we create more pain for everybody. And we 
just need to keep saying over and over again, Federal 
Government, Administration, HUD, please, please help with this 
problem in real ways. Enough talking about it; we have to do 
something, and that do something is money and resources.
    Thank you so very much, Mr. Chairman.
    Chairman Duffy. The gentlelady yields back.
    The Chair now recognizes the Vice Chair of the 
subcommittee, the gentleman from Florida, Mr. Ross for 5 
minutes.
    Mr. Ross. Thank you, Chairman, and thank you for holding 
this hearing.
    I also want to thank our witnesses today for your passion 
and for your service. It is clearly more than a livelihood for 
you. It is a labor of love. And I appreciate your service, 
especially with those involving the homelessness of children 
and a permanent solution for that.
    My first concern has to do with the competitiveness of the 
Continuum of Care grant program. One of the program priorities 
articulated by HUD has been the Housing First approach, which 
focuses on providing immediate access to housing, prioritizing 
providers that offer services to clients on a voluntary basis 
rather than on those programs that require sobriety, 
participation in education, work training, or service programs.
    Under the policy, HUD gives considerable preference based 
on the program's commitment to using the Housing First model, 
placing programs that do not use that model at a severe 
disadvantage in competition for Federal dollars. For example, 
in my district in central Florida, this shift has led to some 
of our most successful results-oriented programs being unable 
to secure financial support from HUD.
    So my question to each of you would be, briefly provide 
your thoughts on HUD's prioritization of programs that use the 
Housing First model. Is the scoring bonus for those programs 
warranted? What have been the results that you have noticed? 
And what are the potential downsides of this Housing First 
policy?
    And I will start off with you, Ms. Roman.
    Ms. Roman. The way I see the Housing First model and the 
way I think it works is that people have a difficult time 
addressing the very serious problems that they have if they are 
not in housing. The treatment doesn't work very well. The 
services don't work very well. So it just seems to work much 
better to get people into Housing First and then try to engage 
them in services and make services available. Sometimes people 
don't take them, but if the services are what people need, 
eventually they do tend to take them. So from my perspective, 
we have seen better outcomes as a result of taking that 
approach.
    Mr. Ross. Ms. Bremer.
    Ms. Bremer. Yes, I can speak to that. I actually direct two 
different programs, one is a zero tolerance program and one is 
a harm reduction model. And I morally really struggled with our 
zero tolerance model, because I felt I am looking at someone 
and saying, you need to follow my precious rules or I am not 
going to help you.
    I think getting--
    Mr. Ross. Let me ask you, is that a result--do you run into 
many that don't want to help themselves or--because it is 
difficult. I understand the need for the housing. No question 
about it. But also, at some point, if we are going to make 
this, as each one of you talked about, a transition to a 
permanent solution of homelessness, they have to be gaining 
some sort of self-sufficiency. And if we can't provide those 
programs because of the Housing First competitive nature that 
we put them in Housing First and not look at the other 
programs, how do we resolve that conflict?
    Ms. Bremer. And I do totally agree with that. I think there 
can be two types of programs. One thing, as we look at it at 
our shelter, is we will take anyone in. But I look at that as 
an opportunity. That gives me an opportunity not to just say 
let's get you into housing immediately. Maybe treatment might 
be a better option.
    Mr. Ross. Right.
    Ms. Bremer. Maybe we can work with that individual to 
secure and meet some of their mental health needs. The one 
thing with housing is that is one thing that then the 
individual does not need to worry about.
    Mr. Ross. I understand.
    Ms. Bremer. And that is one thing that we can help them 
with. But we can't lose one opportunity to try to get somebody 
into treatment, to try to get them to be in compliance with 
their mental health meds, because those are some of the major 
issues that we are also dealing with.
    Mr. Ross. Gotcha.
    Mr. Lynn, in 30 seconds or less.
    Mr. Lynn. I think the data is overwhelmingly supportive of 
the Housing First model as the most effective, and I think that 
is what we really have to listen to. Study after study 
demonstrates that it is more effective in housing people and 
more effective in keeping people housed, and I think that is 
what HUD is really focused on. They have used the data that is 
available to us to drive this model.
    I think it is really important to recognize that housing is 
the lynchpin resource. It is the one that allows you to rest, 
close the door, collect your thoughts, collect yourself, and 
get yourself connected to these other resources. If you lose 
your housing because you are unable to maintain sobriety, which 
is very common--substance abuse has an extremely high 
recidivism rate--it is really hard to do. So when you lose your 
housing because you recidivate, it puts you back in a cycle of 
homelessness and keeps you there. Housing First has 
demonstrated its effectiveness, and that is why it is--
    Mr. Ross. Thank you.
    Ms. Bischoff, as much as I would like to ask you, I think 
my time has expired. So--
    Chairman Duffy. The gentleman yields back.
    The Chair recognizes the gentleman from Missouri, the 
Ranking Member, Mr. Cleaver, for 5 minutes.
    Mr. Cleaver. Thank you, Mr. Chairman.
    I am going to try to do this quickly. I made some comments 
similar to these at another hearing on what happens after some 
kind of a disaster, some major event. But when I was elected 14 
years ago, my wife and I tried to get a house not too far from 
here, and we were warned that the neighborhood was too bad, but 
we could at least afford the house down there.
    Fast forward now, I can't afford to buy a house down there. 
They have the--the Nationals play baseball down there. They 
have about 50 upscale restaurants and new apartments, new 
grocery stores. I can't afford to live there.
    There are 179 census tracts in Washington, D.C. Sixty of 
them have already been ruled as gentrified, 60, and they are 
growing. I have always wondered, where are those people who 
live down there, where are they living now? And the area where 
they can live is narrowing inside the corporate city limits of 
D.C.
    So what happens is that if you are making $7.25 an hour and 
you are getting up every morning and going to work and you 
can't afford to buy an affordable house, you are going to end 
up homeless. And people will say, well, he doesn't want to 
work. Well, if you are making $7.25 an hour, that is about 
$15,000 a year, and you are going to struggle, and you are 
essentially homeless in this town. And it could be--it is 
moving all across the country. It is the same issue. We don't 
have enough affordable housing.
    So I think the whole issue of homelessness is compounded 
by--we have people with mental health problems. That is just 
the reality. Then you have people now who may be getting up 
every morning and going to McDonald's and still they are 
homeless. They can't make enough money. And the housing in this 
city is extremely costly. So this is a profoundly disturbing 
issue for me. I would like for you guys to fix it in the next 2 
minutes, 50 seconds.
    Ms. Roman? Anybody. Please, help.
    Ms. Bischoff. You are absolutely right. There is an 
affordable housing issue all across our Nation. In Columbus, 
Ohio, our approach is part of our strategic plan, and it is 
called Community First, based on the model in Austin, Texas, a 
village there that encompasses the four pillars of stability, 
all on one site. You have affordable housing, where youth would 
be paying 20 percent of their income to live there, in either 
micro homes or efficiency apartments. There would be employment 
onsite available for them. And transportation, the fourth 
pillar of stability, as well as social connections.
    A quarter of the 200 homes on the site would be set aside 
for mentors and staff who choose to live onsite and abide by 
the purpose of this property, which is to lift youth up, and we 
believe that this could change lives.
    Ms. Roman. Affordable housing is the issue, and we are not 
going to rapidly build our way out of that. And I would just 
say, with respect to the homelessness situation, right now, the 
program, the Continuum of Care programs are pretty much full. 
And if an organization wants to innovate around housing 
solutions, which I think we do need to be doing some of, more 
sharing of housing to keep costs down, different kinds of 
housing configurations for people who have active substance 
abuse disorders and so forth, they really can't take the risk 
because of how tight the continuum is.
    So I would suggest one thing that would be good to do would 
be to have an innovation fund in the Continuum of Care so that 
communities like those we have on the panel here could 
experiment with some different models that would help us 
address these housing concerns in the short term.
    Ms. Bremer. I would like to add one thing to what Ann had 
said. We had done a test model, and it is very small scale, but 
it is a house. We placed three unrelated individuals there 
because they could not secure any other housing. Together, it 
is very affordable. They each have their own rooms, they share 
a kitchen and a living room. So those are some of the 
innovative ways that we would like to work with individuals in 
our community to maintain housing.
    Mr. Lynn. I think also at the Federal level, affordable 
housing programs have been cut dramatically over the last 
several years, so the Community Development Block Grant program 
and the home program have both suffered really dramatic cuts. I 
know in Los Angeles County, the decline was about 35 percent 
between 2009 and 2016.
    So those programs go right to the core of what needs to 
happen, which is construction of affordable housing. And those 
things--you know, as Nan pointed out, it is not something you 
can fix quickly. We need construction, we need units to keep up 
with households, and we need units of affordability to keep up 
with households in poverty, and those things need to work 
together on a national level.
    Mr. Cleaver. Thank you.
    Chairman Duffy. The gentleman yields back.
    The Chair now recognizes the gentleman from Illinois, Mr. 
Hultgren, for 5 minutes.
    Mr. Hultgren. Thank you, Chairman Duffy. Thank you all so 
much for being here. Appreciate your work.
    I am going to address my first questions to Ms. Bremer, if 
I may. First, thank you. I am a huge fan of the Salvation Army 
and the amazing work the Salvation Army does certainly in 
Chicago, but all over the country, an incredible history there. 
So I just want to thank you for your work.
    Your testimony mentions that rural areas have unique 
challenges to addressing homelessness. My district, which is 
just west of Chicago, it includes western suburbs, but also 
some rural areas, so I am sure that there are different 
challenges that what many people struggling with homelessness 
are encountering in more urban areas like downtown Chicago, 
just 30, 40, 50 miles away from most parts of my district.
    I wonder if you could describe some of the unique 
challenges for addressing homelessness that are faced in rural 
areas. And then, are there certain solutions or services that 
are most effective at addressing homelessness in rural areas as 
opposed to more urban areas? And what do you think Congress 
ought to do to better address homelessness in rural areas?
    Ms. Bremer. I think one of the main issues with rural areas 
with homelessness also is lack of transportation. All the 
distances are far. I was explaining to someone that, for me, we 
have clients that are on permanent supportive housing right 
now. Sometimes a case manager has to drive 1 hour to get to an 
appointment to see another client. We have a very minimal lack 
of public transportation, and I think that is the largest 
obstacle.
    When you start looking at centralized intake, which is an 
excellent model, but when you have one centralized intake in 
the middle of the county and it is 30 or 40 miles to get there, 
that makes that obstacle very difficult. Doing a lot more 
things electronically, having a lot of different agencies have 
the same centralized intake information so people don't have to 
be asked the same question after question, that would be 
totally beneficial.
    I really like the prioritization that we are having so that 
we are serving the most vulnerable in our population first. But 
again, I just have to go back to transportation.
    Mr. Hultgren. Thanks.
    Ms. Roman, your testimony, you also mentioned that 
homelessness has been going down faster in rural areas than in 
urban areas. Why do you believe this is the case? And what 
steps can be taken to get closer to eliminating homelessness in 
rural areas?
    Ms. Roman. Well, I would agree that flexibility in rural 
areas is really the key. I don't think it is actually a 
definitional issue so much there as that if somebody becomes 
homeless and there is not a shelter bed so they are staying on 
someone's couch, that they are still homeless but they might 
not get counted that way.
    So I just think rural communities need more flexibility to 
address the needs individually, and these transportation needs 
as well, which it may be that a transportation solution would 
solve the problem.
    As to why the number is going down, I am not sure why the 
number is going down, but I do think that rural communities 
have some advantages. They have lower numbers. They tend more 
to be less tolerant of long-term homelessness and to act more 
quickly to resolve the situation.
    Also, a lot of resources come to rural counties, and that 
allows the county itself to use the homeless resources in 
combination with TANF and housing, mental health, and other 
things, and just coordinate a little better. I actually think 
we could end homelessness in rural areas a little--pretty 
quickly, much faster than we could in urban areas if we just 
had a little--some adjustments to our approach there.
    Mr. Hultgren. Ms. Bischoff, if I can address my last minute 
to you. Thank you, first, for all that you are doing, and 
everyone there at Star House is doing, to address youth 
homelessness. I absolutely agree that providing the support 
necessary to help individuals and families find and maintain a 
job is key. I also appreciate the real life examples you shared 
in written testimony from the young man who lost his housing 
because his roommate could not pay his share of rent, to simply 
providing a reliable place to shower for another young man 
before he went to his job at the mall.
    I wonder if you could discuss why the services that you 
offer under the McKinney-Vento Act are successful. And are 
there any improvements that you would recommend to helping 
address youth homelessness? Specifically, how can we help 
provide stable employment and other opportunities for self-
sufficiency?
    Ms. Bischoff. Representative, thank you for the question. 
Our services are successful because we are research-based. We 
started out as a research project at OSU. And the research, one 
of the primary findings is that social connections were the 
greatest predictors of exiting homelessness. And I think in our 
programming, we too often take those connections lightly.
    So at Star House, young people come in through the 
provision of basic needs. We are really in the business of 
developing strong relationships with them. We know them 
individually, not just on paper. That is why we have so many 
stories to tell. Through this relationship-building, then we 
connect them with easy access on one site, therapy, housing 
connections, jobs, education. For youth, we have to make the 
access to resources more flexible and more accessible.
    Mr. Hultgren. Thank you all.
    My time has expired. I yield back, Chairman. Thank you.
    Chairman Duffy. The gentleman's time has expired.
    The Chairman recognizes the gentleman from Nevada, Mr. 
Kihuen, for 5 minutes.
    Mr. Kihuen. Thank you, Mr. Chairman, and thank you, Ranking 
Member, and thank you all for being here this afternoon and for 
your insight.
    Since the 2008 economic recession, thousands of Nevada 
families have been struggling to maintain access to safe and 
affordable housing, as it has been alluded to here with the 
rest of the country.
    I represent the Fourth Congressional District based out of 
Las Vegas, north Las Vegas, in central Nevada. It was the 
epicenter of the housing crisis during the recession, and 
thousands of Nevadans lost their homes, and many were pushed 
into that rental market.
    Today, we are facing a severe shortage of rental homes, as 
we are hearing here today, that are affordable and available to 
people with the lowest incomes. According to the National Low 
Income Housing Coalition, there are only 15 affordable homes 
for every 100 extremely low-income families. Without affordable 
housing options, people live just one event, a car repair, an 
illness, from a destabilizing impact of evictions and, in worse 
cases, homelessness. So unfortunately, this cycle is playing 
out in southern Nevada, where we are experiencing a growing 
homeless population.
    Today, Las Vegas is one of the top 10 cities in America, 
with the highest homeless population. And even more alarming, 
it is one of the fastest growing youth homeless populations in 
the country.
    So with that, I have a couple of questions, and I will 
start with the homeless youth for Ms.--and I apologize if I 
mispronounce your last name--Bischoff. So nearly half of 
homeless youth have been in juvenile detention, jail, or 
prison. Can you talk about the relationship between our system 
of criminal justice and homelessness? And second, what barriers 
exist for youth with criminal backgrounds?
    Ms. Bischoff. Absolutely. Thank you for the question, 
Representative. Our youth are caught in a situation too often 
where they engage in survival crimes. We have a young man 
recently, he grew up in an orphanage in Russia, moved to Ohio, 
and has this lack of understanding for trusting connections, so 
he is often finding himself on the streets. He is not really 
able to couch surf because of that relational issue, and he 
finds himself in prison or jail often as a result. So for him 
the challenge is very strong.
    I think coming out of prison, being able to find housing in 
such a way where you are not evicted is also another barrier 
that they face. So we do need to pay more attention to youth 
aging out of care and youth aging out of juvenile justice to 
ensure that they have the relationships and connections in 
their lives to sustain that housing, employment, and other 
stabilizing features as they go forward.
    Mr. Kihuen. Thank you.
    And, Mr. Lynn, also a question for you as well. The Trump 
Administration has proposed significant rent increases for 
families receiving Federal rental assistance. What would this 
proposal mean for your efforts to reduce homelessness? And do 
you have any reason to believe that this proposal will help 
families becoming more self-sufficient?
    Mr. Lynn. We don't. One of the concerns we have is that the 
families that would be subject to these increases for rent are 
the poorest Angeleno families. Across the Nation, they are the 
poorest folks that we offer assistance to. So an increase that 
might sound like a manageable increase to a family that is at 
median income or above, like $100, is absolutely devastating to 
somebody for whom that is most of their income for that month.
    There are a lot of households that are existing at severe 
poverty levels. And I think the one thing that we really would 
want to underscore is that these have profound impacts on 
people who are the least able to afford them.
    I don't think work requirements are the best approach to 
people experiencing poverty. I think that providing 
opportunities for people to engage in workforce development is 
critical and is very, very important. But certainly, work 
requirements can push people into homelessness. And the rent 
increases for the poorest folks is a very, very, very, very, 
poor use of this resource.
    Mr. Kihuen. All right. Thank you.
    And last question. Ms. Roman, in your experience, what are 
the biggest myths or misunderstandings about homelessness that 
you have had to confront? And how have you sought to change 
public perception on those fronts?
    Ms. Roman. Well, I think probably the biggest myth is that 
everybody has mental illness and substance abuse, and once they 
become homeless, they stay homeless forever basically, until 
they are given a subsidy, and that is not true. Most people 
don't have mental health and substance abuse disorders, 
although those are overrepresented in the population.
    And most people who become homeless self-resolve. They 
enter the homeless system, they figure something out, they 
leave, and they don't come back. So really who stays longer is 
the people with more serious problems.
    How we seek to clarify that to people, we do communications 
and public information, and we rely also on you all 
understanding it and explaining it to the constituents as well.
    Mr. Kihuen. Thank you. And thank you, Mr. Chairman.
    Chairman Duffy. The gentleman yields back.
    The Chair now recognizes the gentleman from Ohio, Mr. 
Stivers, for 5 minutes.
    Mr. Stivers. Thank you, Mr. Chairman. I really appreciate 
you holding this hearing.
    And my first question is for Ms. Bischoff.
    Ms. Bischoff, welcome. It is great to have you here. You 
know, there are a lot of young folks that are, because of the 
definition of homelessness at HUD, they are denied a safe place 
to stay, and they are left to rely on the good will of family, 
friends, and neighbors, or live out of hotels or motels.
    And my first question is, do you think that living--a child 
living in those type of conditions, either relying on the good 
will of extended family, friends, or neighbors, or living out 
of motels, is disadvantaged when it comes to education and 
health outcomes? And can you explain what that means?
    Ms. Bischoff. Representative, thank you for the question. 
Absolutely, they are at a disadvantage. We know that this 
population is 12 times more likely to die, period, then their 
peers who are not homeless.
    I work with young people who are living on the streets, 
sleeping in tents, sleeping on the proverbial park bench, and 
sleeping outside in the elements. The No. 1 killer of this 
population is suicide and overdose because of a lack of hope 
for the future. So healthcare is certainly important. That is 
why we have a health clinic onsite at Star House, so that they 
can have immediate access to those services.
    In terms of workforce, getting to their place of employment 
becomes very difficult when they are living on the north side 
of town one night and the east side of town the next. They are 
getting jobs, as our research has shown, as I shared, but 
keeping those jobs becomes impossible. So we need flexible 
opportunities for them where they have access to trauma-
informed workforce care--workforce development that is in sync 
with the jobs that are offered.
    Mr. Stivers. Thank you for that. So as a follow up, are 
those young folks, these children growing up in those 
conditions of relying on the good will of extended family, 
friends, or neighbors, or living out of motels, more likely to 
experience unemployment or homelessness as adults?
    Ms. Bischoff. Yes. Our research shows that the longer a 
young person experiences the transience of homelessness, by any 
definition, including those couch surfers, the more difficult 
it becomes for them to exit street life. So utilizing the 
McKinney-Vento Education Act, which includes those youth who 
are couch surfing, it allows us to assist all youth living 
without a permanent place to call home before they become 
chronically homeless, and the return on investment over the 
course of a lifetime will be exponential.
    Mr. Stivers. Thank you, Ms. Bischoff. You also talked about 
how hard it is for them to get to employment when they don't 
know where they are going to live. What about getting to a 
school?
    Ms. Bischoff. We have several youth at Star House who are 
currently enrolled in college. I think that is something that 
people don't realize. They have graduated from high school, 
they enroll, but when they are in survival mode, they are going 
to choose food and other basic needs over college and they 
withdraw and then they have debt, and there is a cycle of 
issues. So certainly, we need flexible opportunities of all 
kinds.
    At Star House, in our strategic plan, as we develop this 
village, onsite we want college--community college 
opportunities for them that are virtual and flexible so that 
they can move forward toward stability.
    Mr. Stivers. Thank you. I think, obviously, I know there 
are some people concerned about resources. But we have to 
figure out how to take care of these children. So I really 
appreciate the work you are doing. And I will tell you, a lot 
of us will stand up for more resources, but we have to get a 
definition that helps us get a count so we know what kind of 
resources to get, and that is why this bill is so, so 
important. Thank you so much.
    My next question is about our veteran homelessness. And I 
will ask Ms. Bremer, I guess. Is there anybody who wants a 
question on veteran homelessness? Prefers it?
    Mr. Lynn, you look excited.
    Mr. Lynn. I would be happy too, but Nan, I think, is--
    Mr. Stivers. Would you like it, Mr. Lynn?
    Mr. Lynn. I guess it depends on the question.
    Mr. Stivers. OK. Well, why don't I give you the question, 
and whoever wants to talk about it can.
    So we have seen a huge drop in veteran homelessness, except 
among a special population; that is the population of veterans 
who either don't qualify under the definition of veteran as a 
result of serving in the Reserve as opposed to the Active Duty, 
or those who have discharges with other than honorable 
conditions.
    Let me start with the question, a simple question. Do any 
of you think that somebody should be sentenced to a life of 
homelessness simply because their discharge is an other than 
honorable discharge?
    Mr. Lynn. No one should be homeless.
    Mr. Stivers. Thank you. So is that a problem you are seeing 
in your organizations? And do you believe that we should do 
something to address this special population of folks and try 
to make sure they get resources?
    They don't qualify for the HUD-VASH (Veterans Affairs 
Supportive Housing) program because of the definition of 
veteran, or their designation of service. But do you believe 
that we should try to do something to find a special assistance 
for that population?
    Mr. Lynn. I think that the question, the way you framed it, 
really illustrates how effective resources are. This program, 
HUD-VASH program, the Supportive Services for Veterans Families 
program, together, have driven homeless veteran numbers so far 
down.
    Mr. Stivers. Close to zero.
    Mr. Lynn. We would never have predicted that we could be so 
effective at this challenge of ending veteran homelessness 
before we put the resources in. You put the resources in, they 
really talk. It goes back to--
    Mr. Stivers. In Central High in Columbus, Ohio, 24 
veterans, we are that close every night, and some nights we are 
at like 5 or 6 veterans, but we have never had more than 26, 
and almost every one is in that special population we just 
talked about.
    Mr. Lynn. So resources matter. Finding resources to fit the 
needs of people who are experiencing homelessness, whether they 
are other than honorably discharged veterans, whether they are 
people who have never served and are chronically homeless, 
whether they are youth, we need resources for everyone 
experiencing homelessness. Resources matter. That is why there 
is a challenge with the youth definition. If we don't put the 
resources behind it--we don't know how many kids are in that 
definition, but there are a lot more.
    Mr. Stivers. Let's not make those kids suffer until we 
figure it out, sir.
    Mr. Lynn. So the resources behind it, we can use them. We 
know how to deploy them.
    Mr. Stivers. I am 1 minute and 48 seconds over my time, and 
the Chairman has been very generous. Thank you, Mr. Chairman.
    I appreciate the answer.
    And I yield back, Mr. Chairman.
    Chairman Duffy. The gentleman yields back.
    The Chair now recognizes the gentlelady from New York, Ms. 
Velazquez, for 5 minutes.
    Ms. Velazquez. Thank you, Mr. Chairman.
    Ms. Roman, earlier this week, the House Appropriations 
Subcommittee on Transportation, Housing, and Urban Development 
released their draft spending bill for Fiscal Year 2019. The 
bill provides $3.6 million to U.S. Interagency Council on 
Homelessness, which President Trump sought to eliminate in his 
Fiscal Year 2019 budget request.
    Can you speak to the important role the Council plays? How 
will these additional resources help the Council combat 
homelessness nationwide?
    Ms. Roman. So the Federal Government spends about $5 
billion a year on homelessness from a variety of different 
agencies, five or six major agencies. And I think the 
investment of $3.6 million to coordinate those Federal 
agencies' investment of $5 billion, not to mention all the work 
that USICH does with communities around the country and 
spreading best practices to them and States, is well worth the 
investment. And I think that that coordination--which it is 
very hard for the programs to do. They do it but it is extra 
work, and they are trying to run the programs effectively.--it 
makes a huge difference, and it is a big reason why our numbers 
are going down.
    Ms. Velazquez. Thank you. Ms. Roman, in his budget request, 
the President reduces funding for the Section 8 program, 
requesting approximately $19.3 billion, or $977 million less 
than Fiscal Year 2017 enacted levels. Under the President's 
request, New York City will lose approximately 15,000 Section 8 
vouchers, and more than 200,000 housing vouchers will be lost 
nationwide.
    With more than 200,000 fewer vouchers, how will HUD be able 
to address homelessness and housing poverty?
    And, by the way, you mentioned the misconception of mental 
health and substance abuse. But what about the other 
misconception that homeless people don't work?
    In places like New York, where we have 63,000 homeless 
people, they are the working poor, in many instances. The 
problem there is we don't have enough affordable housing, and 
there are not many resources put into building new housing 
programs that will provide affordable housing.
    Ms. Roman. Yes, of course. So if the budget proposal goes 
through, the result will be that more people will become 
homeless and fewer people will exit homelessness. And this is 
not a wise; however, you may feel about that, this is not a 
wise decision for the country economically, morally, socially, 
because letting people be homeless has a tremendous cost to us 
in all of those areas.
    Ms. Velazquez. Mr. Lynn, would you like to comment?
    Mr. Lynn. As I indicated earlier, I think the voucher 
program is one of the backbones of affordability for the 
poorest Americans. And I think that any cuts to it--the program 
has eroded over time with regard to its reach into the 
population of need. It needs to be expanded. The last thing we 
need is to erode the size and scope of this program.
    Ms. Velazquez. What about your take on the CDBG program? 
You know, in New York City, the CDBG program allowed the city 
to provide emergency shelter to 1,000 households in 2016. Can 
any of you discuss the importance of the CDBG program in 
combating homelessness?
    Mr. Lynn. We use it very effectively in Los Angeles, and 
the city and county of Los Angeles both contribute CDBG funds 
into addressing homelessness, both through development of 
affordable housing, through provision of shelter, through other 
services. I think communities nationally have used it to 
address affordability issues that directly prevent 
homelessness. It has a lot of flexibility and is used to 
address homelessness, both preventing people from falling into 
it by contributing to the affordability in communities, and 
also by direct provision of services for people experiencing 
homelessness. It is a very important program.
    Ms. Roman. I would just add, it also often pays for the 
staff to coordinate the homeless assistance locally.
    Ms. Velazquez. Well, let me just say that I am so happy to 
see that the bipartisan T-HUD appropriations draft that was 
released, this bill, is a clear repudiation of the President's 
budget request of 2019, and I am happy to see that.
    Thank you, and I yield back.
    Chairman Duffy. The gentlelady yields back.
    The Chair now recognizes the gentleman from Pennsylvania, 
Mr. Rothfus.
    Actually, I withdraw that.
    The Chair recognizes the gentleman from California, Mr. 
Royce, for 5 minutes.
    Mr. Royce. Thank you very much, Mr. Chairman.
    Ms. Roman, as you know, our Ranking Member, Maxine Waters, 
and I, along with Representatives Stivers and Joyce Beatty, 
have introduced the Working Together to End Homelessness Act, 
which continues the authorization of the U.S. Interagency 
Council on Homelessness.
    In your testimony, you noted the role that the Council 
plays in coordinating Federal agencies to enhance performance, 
to improve outcomes. Given the urgency here surrounding--and 
across the country--surrounding this issue of the opioid 
crisis, can you speak to the Council's role in aiding Federal 
and local agencies with respect to the intersection of that 
crisis and homelessness?
    Ms. Roman. Yes. Thank you for the question. The impact of 
opioids on homelessness varies. Some places it is a big factor 
and other places it is not, but it is obviously very key. USICH 
pulled together an interagency working group on opioids to 
align Federal efforts around the impact on homelessness and 
provide guidance. The USICH regional coordinators are working 
with communities on key strategies to address opioid use in 
homeless populations and help to stop that.
    They have identified housing providers that are housing 
people who have opioid use disorders and shared those 
successful practices. They have instituted peer-to-peer 
learning and are providing written guidance to communities. So 
they really have led the effort to help homeless assistance 
organizations and systems to understand what the best practices 
that we know of to help people deal with opioids.
    Mr. Royce. Well, thank you, Nan.
    Any of the other members of the panel who want to add any 
specifics in terms of your communities?
    Mr. Lynn. I think the opioid crisis draws out one of the 
key benefits of USICH, which is their ability to coordinate 
between Federal agencies. So you have substance abuse treatment 
and strategies that are deployed through Health and Human 
Services, combined with the work that is going on with the 
homeless assistance grants that come through HUD and other 
Federal agencies, and I think the coordination role is 
critical.
    Mr. Royce. Can you just give me an example, Mr. Lynn, of 
how you do that in L.A.?
    Mr. Lynn. Well, so, in Los Angeles, on the local level, we 
have the Department of Public Health, which is our local 
substance abuse prevention and control agency, working closely 
with the Continuum of Care. So we have deployed beds to address 
people with substance abuse issues.
    The opioid crisis did not hit L.A. as hard as it has hit 
many other regions, but we do work very closely to ensure that 
there are substance abuse treatment beds available through the 
continuum and through the connection that people experiencing 
homelessness have to the rest of the resources. That kind of 
coordination is essentially what--those are the practices that 
are elevated up by USICH and can present a model of 
effectiveness to other communities. Los Angeles has a deep 
bench. Many communities don't. And the work that USICH does in 
terms of elevating what are best practices is critical to those 
communities that just don't have the same resource base or the 
depth of research.
    Mr. Royce. President Reagan said that integrity and 
efficiency in managing Government programs not only save the 
Government money, they mean better service for those the 
programs are designed to serve. They mean better service for 
the people.
    So, Nan, you testified that the Interagency Council on 
Homelessness, the budget there is a very modest sum, especially 
considering the scale of the targeted resources for ending 
homelessness. In line with the former President's maxim, would 
you say that the Council plays a role in improving the 
efficiency of the Administration of these resources? And if so, 
could you just give us a quick example?
    Ms. Roman. It absolutely does that. A good example might be 
the HUD-VASH program. So that is an incredibly effective 
program, as people have discussed already today, that provides 
vouchers from HUD and combines them with services from VA. You 
might think that is pretty straightforward and easy to 
administer, but in the process of implementing that, there have 
been so many decisions that had to be made that just weren't 
really happening: Who was eligible for the assistance, who 
decided who was the next person, what kinds of services, what 
was the case management ratio, who did the outreach? And 
really, those decisions weren't getting made until USICH 
stepped in and coordinated that, and now that program is 
functioning at a high level.
    Mr. Royce. Thank you very much, Nan.
    I will yield back, Mr. Chairman.
    Chairman Duffy. The gentleman yields back.
    The Chair now recognizes the gentleman from Texas, Mr. 
Green, for 5 minutes.
    Mr. Green. Thank you, Mr. Chairman. I would like to thank 
the Ranking Member as well, and the witnesses for appearing 
today.
    I have been provided some intelligence, some information 
from staffers, and I bothered to try to validate it because it 
is something that is difficult to comprehend. And I have 
checked several sources, and most of the sources are close. 
Numbers may vary slightly, but the intelligence indicates that 
African Americans are about 12, maybe 12.5, under 13 percent of 
the population, yet they represent more than 40 percent of the 
homeless population. 12.5 percent, under 13 percent, total 
population, 40 percent of the homeless population.
    Can someone explain to me why we have this disparity, 
please?
    Mr. Lynn. I think it is really impossible to address that 
topic without confronting America's history of racial 
segregation and--
    Mr. Green. I have 3 minutes and 31 seconds, and confront it 
to the extent that you can, please.
    Mr. Lynn. Sir, if you look at African Americans in the 
county of Los Angeles, they comprise about 8 percent of the 
population. If you look at people in poverty in the county of 
Los Angeles, they comprise about 12 percent. So right there you 
have a dramatic overrepresentation of people who are very, very 
poor.
    But if you look at people experiencing homelessness, the 
representation is 40 percent, which is 5 times the general 
population. And I think that there is intersectionality with 
housing discrimination. I think there is intersectionality with 
job discrimination. But if I had to put my finger on one thing, 
it would probably be criminal justice engagement and 
disproportionate impacts of inequitable criminal justice 
enforcement.
    If you look at the population of the jails in Los Angeles 
County, they are 30 percent African American. So these things 
stack. Once you are incarcerated, you have a much harder time 
economically for the future. It is harder to get a job, it is 
harder to keep a job. It is harder to get housing, it is harder 
to keep housing. It is harder to maintain the social 
connections that Ms. Bischoff was talking about that are so 
vital to people. It interrupts every pattern that folks have.
    I think that is one of the strongest predictors of 
homelessness, but the overrepresentation of African Americans 
in homelessness, I think, says volumes about the challenges 
that African Americans are facing across systems in America.
    Mr. Green. Yes, ma'am, if you would.
    Ms. Roman. I just would concur. I would say the 
overrepresentation of African Americans in the poor population, 
housing discrimination, and then the feeder systems, so 
corrections is one, but foster care is another big one that are 
sending people in. I think what we don't know is whether the 
homeless system, which is on the receiving end of that 
disproportionality itself, is having a disparate impact on the 
population, and that is something that we are planning to look 
at in the next year, at the Alliance.
    Mr. Green. Please. Others.
    Mr. Lynn. So in Los Angeles--
    Mr. Green. You have given me an answer that I am--I would 
just like to hear from the other members of the panel, please. 
Just give me your opinions. I would like to hear your opinions.
    Ms. Bischoff. Representative, thank you for the question. I 
concur with Mr. Lynn and Nan. I know at Star House, about 60 
percent of the youth there are African American. It is a little 
bit more than what you would see in the shelter. We attribute 
part of that to the young women in our program being more 
likely to be accepted into someone's home as a couch surfer, 
and these young men are not always welcome in the home of folks 
within their community.
    I agree with Nan in terms of the systems that they are more 
likely to go into.
    Mr. Green. Yes, ma'am, please.
    Ms. Bremer. And I do agree with incarceration. That is a 
huge problem for the folks that we work with. Once you are 
incarcerated, you have that on your record, it becomes 
extremely difficult to secure any type of permanent housing.
    Mr. Green. Well, my time is up. I will have a follow up 
question when I have the next opportunity to visit. I thank 
you.
    Chairman Duffy. The gentleman yields back.
    The Chair now recognizes the gentleman from Pennsylvania, 
Mr. Rothfus, for 5 minutes.
    Mr. Rothfus. Thank you, Mr. Chairman. And thank you to the 
panel for being with us this afternoon, and for the work you 
are doing in a very critical area for our country and in your 
respective communities.
    Ms. Bremer, you mentioned in your testimony that mental 
illness and substance abuse are primary causes of homelessness 
for single adults in your region. As you may know, the opioid 
crisis has been devastating in western Pennsylvania as well. 
One of my main priorities is making sure that our resources are 
effectively deployed to do their best possible work, to help 
those suffering from addiction get clean, get back to work, and 
return to stable, fulfilling, and independent lives.
    What can Congress do to give local providers the tools to 
address this multifaceted problem?
    Ms. Bremer. Additional funds for treatment facilities would 
be extremely beneficial. In the rural area that I am in, we are 
seeing more meth addiction than any other addictions.
    Additionally, the burden on foster care. At our shelter, 
and we are--keep in mind, we are in rural Wisconsin. At one 
given day, one of the communities had taken 14 children into 
custody because of meth use. And the scary part is, is many of 
the parents would be willing to go into treatment, but there is 
a lack of services, for one, and then they worry about what is 
going to happen to their children.
    Mr. Rothfus. Any regulatory restrictions that would limit 
your flexibility to be dealing with this issue?
    Ms. Bremer. Not so much. Again, I think I am looking at 
what we are looking at is additional funding.
    Mr. Rothfus. OK. I think another new billion dollars is 
going to be made available this coming September on treatment 
programs.
    Ms. Bischoff, in your testimony, you wrote that all 
agencies need the freedom to grow and try new concepts to lift 
youth who do not have a permanent home out of homelessness.
    Representative Stivers had a line of questions. He raised 
the definition of homelessness. Given what Representative 
Stivers has been talking about with his legislation, has HUD 
given solving youth homelessness the priority it deserves, do 
you think?
    Ms. Bischoff. Representative, thank you for the question. I 
think HUD is beginning to recognize the need. They recognize 
the drop-in center model as an important piece of the puzzle. 
They are also part of the 100-day challenge that has been going 
on, and an effort of the committee to address youth 
homelessness across the Nation. So I would say that we are all 
beginning to learn more about the population, why they are 
hiding, and how to bring them in.
    Mr. Rothfus. Ms. Roman, I understand that veteran 
homelessness--again, this is an issue that Representative 
Stivers brought up--has fallen significantly in recent years. 
How can we apply what we learned in the fight to reduce veteran 
homelessness to interventions targeted at other subgroups, 
whether it is young people, families, and those suffering from 
drug addiction and mental illness?
    Ms. Roman. Well, I really think that the reason for success 
in the veteran arena is because we had the key tools that we 
needed in terms of interventions. That was permanent supportive 
housing for high-need people and rapid rehousing for lower need 
people, and also some emergency assistance. And really, there 
was a tremendous political will around it and the resources 
were scaled to the size of the problem, and that is what 
allowed us to make that progress there and so rapidly.
    Mr. Rothfus. Mr. Lynn, your testimony details L.A.'s 
homelessness crisis as a, quote, crisis of housing 
affordability. Other high-cost cities, all with housing 
affordability problems on their own, they don't seem to have 
the homelessness epidemic that L.A. has. What makes L.A. 
different from other high-cost areas around the country?
    Mr. Lynn. So I think part of the issue is just scale. You 
have to remember, Los Angeles County has over 10 million 
residents. It is the most populous county in America, and is 
actually, if it were a State, it would be the ninth largest 
State. So it is very, very big. And I think that we do not have 
the per capita homelessness that some other communities do, but 
from the scale of how big Los Angeles is.
    So housing affordability is a key driver, but we have the 
same challenges that many other communities face. There are a 
significant plurality of people with serious mental illness. 
There are a significant plurality of people who face substance 
abuse issues. We have been working to integrate discharge from 
our foster system into the homelessness planning and that work 
is going to be instrumental in preventing homelessness. But I 
think that many of the drivers that we have seen across the 
country also affect Angelenos at a much larger scale.
    Mr. Rothfus. One of the things in your testimony, you said, 
homelessness in L.A. did not arise overnight or over a few 
years, but as a result of many policy choices we have made, 
both Federally and at the local level.
    I am wondering, have local zoning laws contributed to 
housing affordability in Los Angeles?
    Mr. Lynn. I think that it would be hard to argue otherwise. 
Certainly, the housing unit production has not kept up with 
households in Los Angeles County, and that puts a real squeeze 
on affordability. That would do the same anywhere in the--
    Mr. Rothfus. Any other local issues besides zoning that 
might be a factor? Reflecting in your testimony you were 
talking about policy choices at the local level.
    Mr. Lynn. I think particularly land use issues are the key 
there.
    Mr. Rothfus. I yield back.
    Chairman Duffy. The gentleman yields back.
    The Chair now recognizes the gentleman from California, Mr. 
Sherman, for 5 minutes.
    Mr. Sherman. Thank you.
    Between 2009 and 2016, Federal funding for affordable 
housing in Los Angeles County declined 35 percent. That is 
certainly one of the reasons why we have seen this huge 
increase in homelessness. But another, as Mr. Lynn points out, 
is just the incredible cost of building a new apartment unit, 
given the very high fees that local governments impose on each 
unit and given the high cost of land and given the fact that 
you are strictly limited as to how many units you can put on a 
piece of land.
    Mr. Lynn, what would be the impact of the Administration's 
rent reform and work requirements, the so-called Making 
Affordable Housing Work Act, on homelessness in the Los Angeles 
area? Would this initiative help the city serve more people or 
would it exacerbate the problem?
    Mr. Lynn. I think it would clearly exacerbate the problem. 
I think the concern that we have in raising minimum rents for 
people who are the poorest housed folks that are in Los Angeles 
is of grave concern, very concerning. The impact of work 
requirements on households, particularly families with 
children, families with disabled members, I think it would only 
exacerbate the problem, sir.
    Mr. Sherman. Now, although Los Angeles County does have 10 
million people, and New York has even more, although it is 
divided into several different counties, we see one in every 
four people experiencing homelessness last year, did so in New 
York City or Los Angeles. Is that because of the high cost of 
housing in those areas? Because it occurs to me that 
unemployment is a problem nationwide. Addiction is nationwide. 
Psychological and other health problems are nationwide. And yet 
we have one in four people in those two cities.
    Is there something else that causes disproportionate 
homelessness in the two largest metropolitan areas that you can 
put your finger on, other than the very high cost of an 
apartment?
    Mr. Lynn. So I think high cost of living is the key issue. 
Both of those are very unaffordable communities, and the 
unemployment rate is actually quite low. We are experiencing 
quite a robust economy in the Los Angeles area. The challenge 
is that most of the jobs and most of the income has actually 
gone to above median income households. So what happens is, as 
the economy picks up, people have better paying jobs. Folks who 
are making minimum wage and people who are below minimum wage 
who have fixed incomes, they are on benefits program, they are 
on pensions, they feel an extreme squeeze as the rents 
increase, as people can pay more, and there is a fixed housing 
stock issue.
    Mr. Sherman. Now, we in California need to build 180,000 
units a year. We are a growing State. We are building 80,000. 
What can the city of Los Angeles do to bring down--to encourage 
people to build more apartments, condos, affordable housing, or 
even housing that somebody would move into, thereby vacating 
another unit that would be affordable? How do we get more 
housing built in Los Angeles?
    Mr. Lynn. So I think the city and the county are looking at 
this. One of the issues that has driven a lot of interest is 
the building of accessory dwelling units, which are generally 
as of right in most areas, and I think there is the ability to 
put a second unit on your lot. Often called granny flats or a 
second dwelling unit. I think that that holds out a lot of 
promise. I think there has been a lot of work to address this 
concern and think through what is the impact of land use policy 
on constraining supply to address this issue.
    Mr. Sherman. What fee is charged in Los Angeles per unit to 
pay for the infrastructure, the parks, et cetera, that is 
already there? Let's say you have the right to build a 5-unit--
I will use a round number--a 10-unit building. What does the 
city charge you for the right to do that?
    Mr. Lynn. I don't actually know, sir. I have covered a lot 
of zones, but that one is a little far outside my zone, sir.
    Mr. Sherman. OK. Because I am told figures of well over 
$100,000, whereas, in most of the country, the cost of 
construction, land, everything, per unit, would be less than 
that. So I don't know if the figure is that high, but advocates 
for making it easier to build apartments are saying that it 
totals that.
    Mr. Lynn. I will find out and get back to you, sir.
    Mr. Sherman. Thank you.
    Chairman Duffy. The gentleman yields back.
    I want to thank our panel for their testimony today. I 
would just note that you can see there is a bipartisan interest 
in trying to resolve these solutions and both sides coming 
together to help the most disadvantaged among us in our 
communities, whether it is from L.A., to rural Wisconsin, and 
anywhere in between, to Ohio. It is incredibly important, and I 
think you see a willingness from this committee to try to do 
the best we can.
    I just want to thank you for your insight, and look forward 
to continuing to work with this panel and others as we navigate 
this important issue to make sure that we do the right thing as 
policymakers, again, to help the most folks in our communities. 
And so, again, thank you for your testimony and your time.
    Without objection, all members will have 5 legislative days 
within which to submit additional written questions to the 
Chair which will be forwarded to our witnesses.
    I would ask our witnesses, if possible, please respond as 
promptly as you are able.
    And without objection, this hearing is now adjourned.
    [Whereupon, at 4:15 p.m., the subcommittee was adjourned.]

                            A P P E N D I X


                              May 17, 2018
                              
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
